Depatiment of Health and Human Setices
        OFFICE OF
   INSPECTOR GENERAL




  SP~ TOBACCO AND YOUTH:
      ADDmONW         ANALYSIS
Department of Health and Human Services
        OFFICE OF
   INSPECTOR GENEML




    SPIT TOBACCO AND YOUTH:
       ADDITIONAL ANALYSIS




            JUNE 1993   0131-06-92-00501
                     TABLE                     OF CONTENTS




PURPOSE AND BACKGROUND                           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...1

FINDINGS

   Disparity between tax on spit tobacco and cigarettes . . . . . . . . . . . . . . . . . . . . . 1

   Likelihood of higher prices discouraging use of
    tobacco products byyouth     . . . . . . . .. . . . . . . . . . . . . . . . . . . . . . . . . . . . ...2

   Substantial Federal revenues from higher taxmte                           ...................... 2

CONCLUSION          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..4

EXCISE TAX CALCUMTIONS                         ......................................

   Option 1: Tax comparable              to current Federal cigarette tax

   Option 2A       Tax comparable           to $1 per pack cigarette tax

   0ption2B:       Tax comparable           to $2 per pack cigarette tax

   0ption3:      Tax comparable          to State tax onspit           tobacco

   0ption4:      Tax comparable          to Canadian tax on spit tobacco
             SPIT TOBACCO AND YOUTH: ADDITIONAL ANALYSIS
                             OEI 06-92-00501


Purpose

To describe the potential impact of raising the Federal excise tax on spit tobacco in
discouraging use of these dangerous products by youth and in raising substantial Federal
revenues for health care.


Background

In December 1992, the Office of Inspector General released “Spit Tobacco and Youth”
(OEI 06-92-00500), a report describing the present status of youth use of spit tobacco
(moist snuff and chewing tobacco). The Surgeon General, in official comments,
characterized spit tobacco use as an epidemic of oral cancer in the making if young people
continue to use this dangerous product. Specifically, the report found that currently, after
great increases in use since 1970, nearly 1 in 5 high school males use spit tobacco. IGites
for some States, localities or ethnic groups are even higher. In addition, spit tobacco
contains carcinogenic and addictive substances that, in the long run, assure continuous use
of spit or smoked tobacco, and greatly increased risk for cancer and other diseases. The
report strongly urged the Department of Health and Human Services, the Federal Trade
Commission and the Department of the Treasury to re-examine national tobacco control
policy, including higher excise taxes, indexed for inflation, on spit tobacco. TM
supplemental report provides additional analysis to assist in evaluating those
recommendations.


Findings

Zhe Fedend excise tax on spit tobacco is diqmpotinately       low compared to the
cigarette tar.

The Federal excise tax on spit tobacco is a fraction of Federal rates on cigarettes or of
State rates on spit tobacco. The 1993 Federal excise taxis 2.8c per 1.2 ounce tin of snuff
and 2.4C per 3 ounce pouch of chewing tobacco. This Federal tax rate is approximately
1.1% of the estimated average retail price for these products. In contrast, the 24GFederal
excise tax on cigarettes is En timq the spit tobacco rate, i.e., 24Gon a pack of cigarettes
is 11% of the estimated average retail price. Using rates from the 32 States which
currently have spit tobacco excise taxes, we estimated a mean State tax rate of 25% of the
wholesale price. Again, the Federal excise tax is only 1.7% of the estimated wholesale
price.

By way of contrast, average State taxes on spit tobacco and cigarettes are comparable.
Raising spit tobacco ptices through excise taxes is a premising strutegyfor discoumging
youth use.

Our survey and other research show that raising the price of spit tobacco through
increased excise taxes holds significant promise for discouraging use of dangerous spit
tobacco products by youth. In our recent study, 44 percent of the 1992 young spit
tobacco users claimed they would stop using spit tobacco if the price increased a lot. The
existing research indicates that for the adult population, a tobacco product such as
cigarettes has a price elasticity of demand of approximately -0.4, meaning that a 10
percent increase in price reduces the quantity of cigarettes demanded by 4 percent.1
However, for young people the price elasticity of demand is even greater at approximately
-1.44 (or a 14.4% decrease in consumption for a 10% increase in price)? This indicates
that any price increases associated with increased excise taxes would result in much
greater decreases in demand for tobacco products by this population. This price
sensitivity by young people would significantly decrease the number of current and
potential new users of tobacco products in the long run. Therefore, raising Federal excise
taxes on spit tobacco products is a very powerfid health promotion strategy.

Since the majority of youth start spit tobacco use before the age of 12, an increase in the
Federal excise tax would deter future use of this dangerous product in subsequent
generations, helping to avert the epidemic of oral cancer many researchers fear.


SubstuntiizlFedend revenues - hundreds of miilions - can be realized annually by
increasing the excike tax on spit tobacco.

As implied by the first finding, several logical and viable options exist for increasing
Federal excise taxes on spit tobacco. Depending upon the approach used, we estimate
Federal revenues ranging from $221 million to $2 bfllon annually can be generated. The
principle applied by each of these methods is that spit tobacco should be treated as just
another tobacco product, thus removing its current special tax status. The first option is
to remove the current discrepancy between rates for spit tobacco and those for cigarettes.
The remaining options illustrate revenues generated from applying to spit tobacco higher
rates of excise tax comparable to those sometimes proposed for cigarettes. Our revenue
estimates are based on current consumption rates and do@ predict possible market and
behavior adjustments by producers or consumers.




I
       U.S. Department of HeAb and Human Services, Centers for Diaeaae Control, Office of Smoking
       and Health, Reducing the Health Consequence of Smoking: 2S Years of Progrtm, a report of the
       Surgeon General, Publication No. (CDC) 533-542, 1989.

2	
       Lewit,E.M., D. tiate,   and M. Grossman, “The effects of government regulation on teenage
       smoking, ” Journal of Law and Economia, 24:545-569, December 1981.

                                                  2
Four prominent options for increasing the Federal excise tax on spit tobacco:

       �      A tax comparable to current cigarette taxes.

              $$jv                         Raise the Federal excise tax on spit tobacco
                                           from 1.1% to 11% of the average estimated
                                           retail price*

       �	     A tax comparable to the proposed cigarette tax of $1 or $2 per pack.

                                           $1 per path
              $1 billion annuallv          Raise the Federal excise tax on spit tobacco

                                           from 1.1% to 44% of the average estimated

                                           retail price.


                                           $2 per pack:

              $2 billion annually          Raise the Federal excise tax on spit tobacco

                                           fkom 1.1% to 89% of the average estimated

                                           retail price.


       �      A tax comparable to existiig State excise taxes on spit tobacco.

              $349 million annuallv	       Raise the Federal excise tax on spit tobacco
                                           from 1.7% to 25% (mean State tax rate) of the
                                           average estimated wholesale price for a 1.2
                                           ounce tin or 3 ounce pouch.

       �      A tax comparable to the Federal Canadian tax on spit tobacco.

              $~	                          Raise the Federal excise tax on snuff to $1.90
                                           per tin and on chew to $1.68 per pouch.


Details, and the assumptions upon which these options are based, are included in the
attachments.

To the extent that the higher excise tax would discourage use of these tobacco products,
the above estimates may somewhat overstate the amount of revenues that would be
realized. However, given that the demand for tobacco products for the overall population
is not as elastic as for young tobacco users, much of the new excise tax would be passed
on to the general consumer. Thus, the decrease in use of these products among youth
would be disproportionately higher than the reduction in tax revenues from the general
population. Both the health effwt of and the revenue producing aspects of the proposal
would remain strong.


                                             3

Conclusion

Raising the Federal excise tax on spit tobacco is warranted on the basis of its
inconsistency with other tobacco products and its potential for protecting the nation’s
youth by discouraging their use of addictive, carcinogenic tobacco products that endanger
their health. In addition, it would raise substantial revenues that could be used to finance
health care initiatives.




                                               4

Department of Healt~’ and Hii”~zinSewices
        OFFICE OF
   INSPECTOR GENERAL




    SPIT TOBACCO AND YOUTH:
       ADDITIONAL ANALYSIS




            JUNE 1993   OEI-06-92-00501
                     TABLE                   OF CONTENTS

                                                                                                               PAGE


PURPOSE AND BA~GRO~                             . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...1

FINDINGS

   Disparity beweentu            onspittobacco          and cigarettes . . . . . . . . . . . . . . . . . . . . . 1

   Likelihood ofhigher prices disouraging useof
    tobacco productsbyyouth     . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...2

   Substantial Federal revenues from higher tax rate                        .;.................... 2

~N~USION            . . . . . . . . . . . . . . . . . . . . . . ..0”’   ”so~o~” .0”” .”O. *”-a ”-” o-4

EXCISE TAX CALCULATIONS                        . . . . . . . . . . . . ..~”~o” o””~o. o.”o””*~o G““”

   Option 1: Tax comparable to current Federal cigarette tax

   Option Zk        Tax comparable to $lper pack cigarette tax

   0ption2B:        Tax comparable to $2 per pack cigarette tax

   0ption3:       Tax comparable to State t~on                  spit tobacco

   0ption4        Tax comparable to Canadiantm                    on spit tobacco
             SPIT TOBACCO AND YOUTH: ADDITIONAL ANALYSIS
                             OEI 0iW2-00501


Purpose

To describe the potential impact of raising the Federal excise tax on spit tobacco in
discouraging use of these dangerous products by youth and in raising substantial Federal
revenues for health care.


Background

In December 1992, the Office of Inspector General released “Spit Tobacco and Youth”
(OEI 06-92-00500), a report describing the present status of youth use of spit tobacm
(moist snuff and chewing tobacco). The Surgeon General, in official comments,
characterized spit tobacco use as an epidemic of oral cancer in the making if young people
continue to use this dangerous product. Specifically, the report found that currently, after
great increases in use since 1970, nearly 1 in 5 high school males use spit tobacco. Rates
for some States, localities or ethnic groups are even higher. In addition, spit tob­
contains carcinogenic and addictive substances that, in the long run, assure continuous use
of spit or smoked tobacco, and greatly increased risk for cancer and other diseases. The
rqofi strongly urged the Department of Health and Human Services, the Federal Trade
Commission and the Department of the Treasury to re-exarnine national tobacco control
policy, including higher excise taxes, indexed for inflation, on spit tobacco. This
supplemental report provides additional analysis to assist in evaluating those
recommendations.


Findings

Ike Federul excise tax on s@!tobacco is disptvportionutely knv companxi to the
cigarette tax.

The Federal excise tax on spit tobacco is a fraction of Federal rates on cigarettes or of
State rates on spit tobacco. The 1993 Federal excise tax is 2.8c per 1.2 ounce tin of snuff
and 2.4G per 3 ounce pouch of chewing tobacco. This Federal tax rate is approximately
1.1% of the estimated average retail price for these products. In contrast, the 24QFederal
excise tax on cigarettes is @J times the spit tobacco rate, i.e., 24Gon a pack of cigarettes
is 11% of the estimated average retail price. Using rates from the 32 States which
currently have spit tobacco excise taxes, we estimated a mean State tax rate of 25% of the
wholesale price. Again, the Federal excise tax is only 1.7% of the estimated wholesale
price.

By way of contrast, average State taxes on spit tobacco and cigarettes are comparable.
Raising spit tobacco pdces thtvugh excise -es          is a prvmising stmtegy for &scoum@”ng
youth use.

Our sumey and other research show that raising the price of spit tobacco through
increased excise taxes holds significant promise for discouraging use of dangerous spit
tobacco products by youth. In our reant study, 44 percent of the 1992 young spit
tobacco users claimed they would stop using spit tobacco if the price increased a lot. The
existing research indicates that for the adult population, a tobacco product such as
cigarettes has a price elasticity of demand of approximately -0.4, meaning that a 10
percent increase in price reduces the quantity of cigarettes demanded by 4 percent.l
However, for young people the price elasticity of demand is even greater at approximately
-1.44 (or a 14.4% decrease in consumption for a 10% increase in price)? This indicates
that any price increases associated with increased excise taxes would result in much
greater decreases in demand for tobacco products by this population. This price
sensitivity by young people would significantly decrease the number of current and
potential new users of tobacco products in the long run. Therefore, raising Federal excise
taxes on spit tobacco products is a very powerful health promotion strategy.

Since the majority of youth start spit tobacco use before the age of 12, an increase in the
Federal excise tax would deter future use of this dangerous product in subsequent
generations, helping to avert the epidemic of oral cancer many researchers fear.
                       .

Substantial Federal n?venues- hurukds of millions - can be realized annually by
incnmsing the excise tax on spti tobacco.

As implied by the first finding, several logical and viable options exist for increasing
Federal excise taxes on spit tobacco. Depending upon the approach used, we estimate
Federal revenues ranging from $221 million to $2 billion annually can be generated. The
principle applied by each of these methods is that spit tobacco should be treated as just
another tobacco product, thus removing its curmmt special tax status. The first option is
to remove the current discrepancy between rates for spit tobacco and those for cigarettes.
The remaining options illustrate revenues generated from applying to spit tobacco higher
rates of excise tax comparable to those sometimes proposed for cigarettes. Our revenue
estimates are based on current consumption rates and do@ predict possible market and
behavior adjustments by producers or consumers.




1
       U.S. Department of Health and Human Sewices, CeIItera for Disease Control, Office of Smoking
       and Hsahlz, Reducing the Health Consequence.s of Smoking: 25 Years of Progrtxs, a twport of the
       Surgeon Gmeral, Publication No. (CDC) 533-542, 1989.

2	
       Lewit, E. M., D. Coate, and M. Grossman,
                                              Tbe effects of govemmeat zwguhtion on teenage
       smoking, Jountal of Law and Ewnomics, 24:545-569, December 1981.
                �




                                                  2
Four prominent options for increasing the Federal excise tax on spit tobacco:

       �      A tax comparable to current cigarette taxes.

              $~,y                   1	      Raise the Federal excise tax on spit tobacco
                                             fkom 1.1% to 11% of the average estimated
                                             retail Priu.

       �      A tax comparable to the proposed cigarette tax of $1 or $2 per pack.

                                             $1 per pack
              $ 1 billion annually           Raise the Federal excise tax on spit tobacco

                                             from 1.1% to 44% of the average estimated

                                             retail price.


                                             $2 per pack

                  . .
              $2 bllllon wwilly              Raise the Federal excise tax on spit tobacco

                                             from 1.1% to 89% of the average estimated

                                             retail price.


       �      A tax comparable to existing State excise taxes on spit tobacco.

              $349 million annually	         Raise the Federal excise tax on spit tobacco
                                             from 1.7% to 25% (mean State tax rate) of the
                                             average estimated wholesale price for a 1.2
                                             ounce tin or 3 ounce pouch.

       �      A tax com~rable        to tbe Federal Canadian tax on spit tobacco.

              $~y7 bill”	                    Raise the Federal excise tax on snuff to $1.90
                                             per tin and on chew to $1.68 per pouch.


Details, and the assumptions upon which these options are based, are included in the
attachments.

To the extent that the higher excise tax would discourage use of these tobacco products,
the above estimates may somewhat overstate the amount of revenues that would be
rcdized. However, given that the demand for tobacco products for the overall population
is not as elastic as for young tobacco users, much of the new excise tax would be passed
on to the general consumer. Thus, the decrease in use of these products among youth
would be disproportionately higher than the reduction in tax revenues fkom the general
population. Roth the health eff~t of and the reven’       ducing aspects of the proposal
would remain strong.


                                               3

Conclusion

Raising the Federal excise tax on spit tobacco is warranted on the basis of its
inconsistency with other tobacco products and its potential for protecting the nation’s
youth by discouraging their use of addictive, carcinogenic tobacco products that endanger
their health. In addition, it would raise substantial revenues that could be used to finance
health care initiatives.




                                              4





                                                                                               —..
